aN

OCKLE

2311 Douglas Street CA . E-Mail Address:
Omaha, Nebraska 68102-1214 L ega 1 B phets contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-890

STANFORD VINA RANCH IRRIGATION COMPANY,
Petitioner,
Ve
STATE OF CALIFORNIA, STATE WATER RESOURCES
CONTROL BOARD, STATE WATER RESOURCES
CONTROL BOARD MEMBERS FELICIA MARCUS,
DOREEN D’ ADAMO, FRANCES SPIVY-WEBER,
STEVEN MOORE, AND TAM DODUC;
AND DOES 1 THROUGH 20,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE CENTRAL DELTA WATER AGENCY IN SUPPORT OF PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2759 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of February, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska & 2 b L,
i RENEE J. GOSS 9 .
My Comm. Exp. September 5, 2023 ed

Notary Public Affiant 40593
